No. 20-443

In the Supreme Court of the United States
UNITED STATES OF AMERICA, PETITIONER
v.
DZHOKHAR A. TSARNAEV
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

REPLY BRIEF FOR THE PETITIONER

JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

TABLE OF CONTENTS

Page
A. The court of appeals failed to give due respect to
the district court’s management of voir dire .................. 2
B. The Waltham evidence did not justify the court of
appeals’ vacatur of respondent’s sentence...................... 6
C. The questions presented warrant review ..................... 10
TABLE OF AUTHORITIES

Cases:
Aldridge v. United States, 283 U.S. 308 (1931) .................... 6
Brady v. Maryland, 373 U.S. 83 (1963) ................................ 9
Mu’Min v. Virginia, 500 U.S. 415 (1991) ...................... 4, 5, 6
Patriarca v. United States, 402 F.2d 314
(1st Cir. 1968), cert. denied, 393 U.S. 1022 (1969) ............. 3
Rosales-Lopez v. United States, 451 U.S. 182 (1981)........... 6
Skilling v. United States, 561 U.S. 358 (2010) .............. 2, 3, 4
United States v. French, 904 F.3d 111 (1st Cir. 2018),
cert. denied, 139 S. Ct. 949 (2019) ..................................... 11
United States v. Hasting, 461 U.S. 499 (1983) ..................... 5
United States v. Payner, 447 U.S. 727 (1980) ....................... 5
Wood v. Bartholomew, 516 U.S. 1 (1995) .............................. 9

(I)

In the Supreme Court of the United States
No. 20-443
UNITED STATES OF AMERICA, PETITIONER
v.
DZHOKHAR A. TSARNAEV
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

REPLY BRIEF FOR THE PETITIONER

This is no ordinary capital case. It is a prosecution
for terrorism, involving horrific crimes that struck at
the entire Nation. Respondent’s victims, their families,
the jury, the district court, and the government devoted
enormous effort to fairly adjudicating respondent’s guilt
and securing a lawful death sentence for his grievous
offenses. The court of appeals then set aside that sentence on demonstrably erroneous grounds, one of which
was a supposedly longstanding voir dire rule that had
apparently escaped even the court’s own notice when it
praised the jury-selection procedures before trial. The
decision below needlessly requires a new and more onerous penalty trial where respondent’s victims would
relive their trauma. A decision of such significance to
so many should be reviewed by this Court.
Respondent’s principal argument against review is
that the court of appeals’ holdings are largely case(1)

2
specific. But the court committed legal error in imposing a one-size-fits-all voir dire rule. Even setting that
aside, this Court has often reviewed fact-intensive
issues in capital cases, and surely such review is equally
warranted in a case of this magnitude. The district
court reasonably exercised its discretion not only in
conducting voir dire, but in declining to allow the penalty phase of respondent’s trial to become a minitrial of
respondent’s brother for a different crime allegedly
committed two years before the Boston Marathon
bombing. In so holding, this Court would necessarily
dispense with the subsidiary issue of whether respondent was entitled to withheld evidence about that different crime, which respondent incorrectly describes as a
“third” holding that could “independent[ly]” support
the decision below. This Court should grant certiorari,
reverse that decision, and allow this case to reach its
just conclusion.
A. The Court Of Appeals Failed To Give Due Respect To
The District Court’s Management Of Voir Dire

The inflexible voir dire rule imposed by the court of
appeals was both unexpected and unjustified. Respondent cannot square that court’s directive to ask particular questions with this Court’s recognition of trial
judges’ broad discretion over jury-selection procedures.
The supervisory power does not permit courts of appeals to contravene the clear instructions of this Court.
1. This Court has made clear that “[n]o hard-andfast formula dictates the necessary depth or breadth of
voir dire” in a federal criminal trial. Skilling v. United
States, 561 U.S. 358, 386 (2010). Instead, determining
“the measures necessary to ensure [ juror] impartiality—

3
including with respect to pretrial publicity—lies “ ‘particularly within the province of the trial judge.’ ” Id. at
386-387 (citation omitted).
Respondent does not dispute that the district court
here adopted multiple measures to expose potential bias
arising from pretrial publicity, including inquiries on
the jury questionnaire, follow-up questions in person,
and an opportunity for questions from the parties. Pet.
19-20. Nor can respondent deny that the court of appeals in 2015 “commend[ed]” that “rigorous” voir dire
as “thorough and appropriately calibrated to expose
bias,” only to turn around five years later and denounce
it as inadequate because the district court did not ask
every prospective juror what he or she had specifically
“ ‘read and heard about the case.’ ” Pet. App. 53a, 250a,
253a (citation omitted); cf. Br. in Opp. 33.
Respondent contends (Br. in Opp. 32-33) that the
court of appeals’ turnabout was not unexpected because
its post-trial decision cited language in Patriarca v.
United States, 402 F.2d 314 (1st Cir. 1968), cert. denied,
393 U.S. 1022 (1969). But respondent does not explain
why, if the “Patriarca rule” (Br. in Opp. 24) was actually
well established, the court of appeals’ pretrial decision
did not identify it, the district court was apparently unware of it, and he himself did not raise it until appeal.
And respondent does not dispute that the First Circuit
has never before vacated a conviction or sentence based
on Patriarca. See Pet. 23; cf. Br. in Opp. 25, 32.
Respondent attempts to cast aside (Br. in Opp. 33)
the court of appeals’ pretrial decision because it rejected “a mid-voir dire mandamus petition seeking a
change of venue.” But that decision came after the district court had provisionally qualified the prospective
jurors from which the parties selected the jury. Pet.

4
App. 35a-41a, 235a. Under respondent’s theory, the
voir dire error had already occurred by that time. Yet
the court of appeals examined the pretrial-publicity
concerns and found that the voir dire had provided “ ‘a
sturdy foundation to assess fitness for jury service.’ ”
Id. at 253a (quoting Skilling, 561 U.S. at 395). Respondent offers no tenable justification for the court’s decision to invalidate on the back end the same procedures
that it had correctly praised on the front end.
2. The court of appeals’ rule was not only unexpected, but wrong. This Court has recognized that a
“trial court requires great latitude in deciding what
questions should be asked on voir dire.” Mu’Min v.
Virginia, 500 U.S. 415, 424 (1991). The court of appeals’
rule, in contrast, dictates “questions” that must “be
asked on voir dire”—the antithesis of “the wide discretion granted to the trial court in conducting voir dire in
the area of pretrial publicity.” Id. at 424, 427.
Respondent attempts to find flexibility in the court
of appeals’ rule because a district court “must exercise
discretion to trigger the rule” by finding “ ‘a significant
possibility that jurors have been exposed to potentially
prejudicial material.’ ” Br. in Opp. 31-32 (citation omitted). That limited triggering decision, however, is not
“latitude in deciding what questions should be asked.”
Mu’Min, 500 U.S. at 424 (emphasis added). And the
“after-the-fact” flyspecking of voir dire on a “cold transcript” that is invited by the court of appeals’ rule is precisely the sort of “second-guessing” that appellate
courts should “resist[ ].” Skilling, 561 U.S. at 386.
Respondent errs in contending (Br. in Opp. 26-33)
that the court of appeals’ rigid voir dire rule is a permissible exercise of its supervisory authority. The supervisory power is not a blank check for an appellate panel

5
to impose any rule it might deem desirable. See, e.g.,
United States v. Hasting, 461 U.S. 499, 506-507 (1983).
Rather, the power must be exercised with “some caution” and within the “considered limitations” of the surrounding law. United States v. Payner, 447 U.S. 727,
734, 737 (1980). For example, “the supervisory power
does not authorize” a suppression rule where the
Court’s own “Fourth Amendment decisions have established beyond any doubt that the interest in deterring
illegal searches does not justify the exclusion of tainted
evidence,” as the “values assigned to the competing interests do not change because a court has elected to analyze the question under the supervisory power instead.” Id. at 735-736.
Here, respondent acknowledges this Court’s holding
in Mu’Min v. Virginia, supra, that “the Sixth Amendment does not require content-specific questions” about
pretrial publicity. Br. in Opp. 27. But he nevertheless
defends a supervisory rule that imposes precisely that
requirement. Respondent suggests (id. at 27, 30) that
Mu’Min supports such a rule because the opinion noted
that some lower courts had adopted similar ones. See
500 U.S. at 426-427. Mu’Min, however, cited those decisions only to illustrate that lower courts were divided
on whether to require such questions. Id. at 426. Far
from endorsing a rule of the sort at issue here, the Court
emphasized that “both” its constitutional and supervisory decisions dictate that “the trial court retains great
latitude in deciding what questions should be asked on
voir dire.” Id. at 424.
Finally, respondent notes (Br. in Opp. 30) that this
Court has “used its own supervisory powers to regulate
discrete aspects of voir dire by compelling specific inquiries about racial prejudice in certain circumstances.”

6
But the cited decisions involved “fail[ures] to ask any
question which could be deemed to cover the subject” of
racial prejudice. Aldridge v. United States, 283 U.S.
308, 311 (1931) (emphasis added); see Rosales-Lopez v.
United States, 451 U.S. 182, 189 (1981) (plurality opinion). And this Court has distinguished the general inquiry required by those decisions from a more specific
scripting requirement of the sort the panel erroneously
imposed here. See Mu’Min, 500 U.S. at 424.
B. The Waltham Evidence Did Not Justify The Court Of
Appeals’ Vacatur Of Respondent’s Sentence

The court of appeals’ second ground for vacating respondent’s sentence was another unjustified usurpation
of the district court’s discretion. The district court correctly determined that respondent was not entitled to
divert the penalty proceeding for his own acts of terrorism into a confusing minitrial over allegations about a
different crime by his brother Tamerlan two years earlier. Like the court of appeals, respondent offers no
sound basis to overcome the “great deference,” Pet.
App. 73a (citation omitted), owed to the district court’s
decision to exclude Ibragim Todashev’s unverified (and
unverifiable) claims about the Waltham crime.
1. Respondent criticizes the district court’s finding
that the Waltham evidence lacked probative value as
“based on incomplete information,” asserting that the
court “did not know that the government itself had concluded” that Todashev’s story “was sufficiently reliable
to support a sworn search warrant affidavit.” Br. in
Opp. 17-18, 21. In fact, respondent’s counsel invoked
the affidavit in the district court in arguing the motion
in limine. Resp. C.A. Add. 340-341. And while the FBI
agent who swore out the affidavit truthfully described
what Todashev had claimed, he could not and did not

7
endorse the veracity of Todashev’s story in all of its particulars. Resp. C.A. Sealed Add. 31-34. Respondent
errs in suggesting (Br. in Opp. 20-21) that the affiant’s
belief that Todashev’s statements could support an
investigatory search would have allowed the defense to
introduce Todashev’s story in a way that “the government could not have contested,” thereby somehow
avoiding a minitrial. That estoppel theory is legally
baseless, and the affidavit would not have enabled the
jury to assess Todashev’s credibility, which would have
been critical given his incentive to downplay his own
involvement in the Waltham murders by exaggerating
Tamerlan’s. Pet. 27.
Respondent contends that the Waltham evidence
was “highly probative” of his “central mitigation theory” that he “was susceptible to, and acted under, Tamerlan’s influence.” Br. in Opp. 18-19. But respondent’s
Waltham-as-mitigation theory would have required the
jury to adopt an implausible chain of unsupported inferences. For the Waltham evidence to be probative of respondent’s relative culpability for the Boston Marathon
bombing, jurors would have needed to conclude that
(1) Tamerlan committed the Waltham murders in the
particular way that Todashev claimed; (2) Tamerlan’s
conduct in doing so suggested a willingness and ability
to force his own brother to do his bidding; and (3) such
willingness and ability carried over to respondent’s
vastly different crime committed two years later.
Respondent identified no evidence that would support the first inference, beyond the statements of a deceased witness with an obvious incentive to lie. The second inference was refuted by the evidence: rather than
controlling Todashev to commit “horrific violence,” Br.
in Opp. 19, Tamerlan allowed Todashev to decline to

8
commit murder, Pet. 28. And to the extent that respondent was aware of any specifics of the Waltham
crime, he reacted with approval for the furtherance of
jihad, not apprehension that he himself would be conscripted into murder. Pet. 30. Respondent’s third inference cannot be squared with either the obvious differences between the two crimes or with the overwhelming evidence that he was no unwilling accomplice
to terrorism. Respondent personally placed and detonated a bomb in service of his own jihadist beliefs, and
he attempted to justify his murderous actions even after
he believed that Tamerlan had died. Pet. 28-29.
Furthermore, because respondent’s potential mitigation argument based on Todashev’s Waltham story
was so contrary to the evidence, any error in excluding
that evidence was harmless beyond a reasonable doubt.
Pet. 29-30. Respondent contends that “the jury was receptive to the argument that Tamerlan influenced respondent” because it “rejected a death sentence for all
counts based on acts for which Tamerlan was present.”
Br. in Opp. 22-23. On the contrary, the jury’s verdict
confirms the irrelevance of the Waltham issue by
demonstrating the jury’s careful consideration of each
of respondent’s crimes and its determination that capital punishment was warranted for the horrors that he
personally inflicted—including placing a bomb behind a
group of children and detonating it. Pet. 30. The verdict does not indicate that the jury had any inclination
to absolve respondent of culpability for those personal
atrocities based on suggestions of Tamerlan’s influence.
2. Respondent errs in contending that a separate
unchallenged “Brady ruling would prevent this Court
from ruling for the government on the [second] question
presented.” Br. in Opp. 14; see id. at 1-2, 13, 16. The

9
court of appeals’ subsidiary conclusion that withholding
particular Waltham evidence violated Brady v. Maryland, 373 U.S. 83 (1963), was not an “independent
ground[ ]” for the court of appeals’ judgment (Br. in
Opp. 10).
In accord with respondent’s own appellate brief, the
court of appeals treated the issue of purportedly mitigating evidence about the Waltham crime as a single
issue involving two interrelated arguments. See Pet.
App. 64a-86a; Resp. C.A. Br. 227. In particular, the
court expressly premised its conclusion that material
Waltham evidence had been improperly and prejudicially withheld on its conclusion that the jury should in
fact have heard Waltham evidence. See Pet. App. 86a
(finding the Waltham evidence material under Brady
because, “as we * * * explained” a few “pages earlier,”
“Todashev’s confession * * * strongly supported the
defense’s arguments about relative culpability”); see
also Br. in Opp. 1-2 (describing the Brady holding as
“intertwined with” the Waltham-as-mitigation issue).
Thus, if this Court agrees with the government either
that all the Waltham evidence was properly excluded,
or that excluding it did not affect the outcome of the
penalty proceeding, it necessarily follows that respondent was not prejudiced by any withholding.
Respondent asserts that disclosing more Todashev
evidence could have “enabled the defense to ‘develop
additional mitigating evidence.’ ” Br. in Opp. 16 (quoting Pet. App. 86a) (brackets omitted). But “mere speculation” that disclosure of withheld evidence “might
have led [defense] counsel to conduct additional discovery that might have led to some additional evidence that
could have been utilized” is not a proper basis for a
Brady claim. Wood v. Bartholomew, 516 U.S. 1, 6 (1995)

10
(per curiam). In any event, any additional evidence
would have been about the Waltham crime. If this
Court rejects the court of appeals’ conclusion that evidence of the Waltham crime was necessary for a valid
verdict—as the second question presented asks this
Court to do—then respondent’s ability to further investigate that crime was immaterial.
C. The Questions Presented Warrant Review

Respondent does not dispute either the extraordinary significance of this case or that the decision below
would allow reimposition of his capital sentence only
after a highly fraught and burdensome repeat of the
penalty proceeding that will impose substantial personal costs on his victims. Pet. 31-33. This Court should
not permit the court of appeals’ erroneous conclusions
to cause that result.
Respondent characterizes the court of appeals’ holdings as narrow and factbound. Br. in Opp. 15, 21, 24.
But the voir dire issue involves a categorical rule that
would apply equally to any case involving substantial
pretrial publicity; that is the very point of adopting an
inflexible supervisory rule rather than a case-by-case
approach. The issue of district courts’ discretion to address pretrial publicity during jury selection will only
become more common and significant as social media
continues to proliferate. And although both questions
presented turn to some extent on the record, that is almost always true in pretrial-publicity cases, and frequently in capital cases more generally. This Court has
nevertheless granted review in cases that are equally if
not more record specific. See Pet. 31-32.
The purported “vehicle problems” asserted by respondent (Br. in Opp. 1, 12) are no reason to deny
review. As explained above, respondent’s Brady claim

11
will be resolved by this Court’s decision on the second
question presented. See pp. 8-10, supra. And his jurormisconduct claim (Br. in Opp. 1-2, 6, 13, 29, 33)—which
the court of appeals did not decide—should not shield
the case from this Court’s review. Even if the court of
appeals were ultimately to side with respondent on that
claim, the remedy would not be vacatur of the capital
sentence, as the decision below currently requires, but
instead simply an evidentiary hearing in the district
court. See Pet. App. 61a (discussing the possibility of
further “investigat[ion]” by the district court) (quoting
United States v. French, 904 F.3d 111, 117 (1st Cir.
2018), cert. denied, 139 S. Ct. 949 (2019)); see also Gov’t
C.A. Br. 135 n.33. Moreover, for reasons explained in
the government’s brief below, see Gov’t C.A. Br. 118135, the misconduct claim lacks merit, as it involves (at
most) ambiguous misstatements by jurors on relatively
minor questions that would not have resulted in their
disqualification.
Respondent’s assertion (Br. in Opp. 2, 13) that the
court of appeals is “all but certain to vacate” his death
sentence for juror misconduct is thus entirely speculative. And the possibility of a third error by the court of
appeals is not a basis for declining to address the two
dispositive ones that it has already made. This case is
exceptionally important to the Nation. This Court
should ensure that it is correctly resolved. And the government respectfully requests that the Court do so this
Term.

12
* * * * *
For the foregoing reasons and those stated in the
petition for a writ of certiorari, the petition should be
granted.
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General

DECEMBER 2020

